No. 20A99

In the
Supreme Court of the United States

ORLANDO HALL AND BRANDON BERNARD,
Applicants,
v.
WILLIAM P. BARR, ATTORNEY GENERAL, et al.
Respondents.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the Supreme Court Bar and
that, on this 19th day of November, 2020, copies of the Reply in Support of Stays of
Execution were sent to:
Jeffrey Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
Respectfully submitted,

Arn Jacobsen

